Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL





  BEN TAUB GENERAL HOSPITAL

CLAIMED UNALLOWABLE MEDICARE 

 REIMBURSEMENT FOR HOSPITAL 

  OUTPATIENT DENTAL SERVICES





  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler

                                               Regional Inspector General


                                                      February 2014

                                                      A-06-13-00004

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                               INTRODUCTION


    Ben Taub Hospital improperly claimed $818,967 in Medicare reimbursement for hospital
    outpatient dental services.


WHY WE DID THIS REVIEW

Dental services are generally excluded from Medicare coverage. Previous Office of Inspector
General work identified Medicare payments that exceeded charges for outpatient services,
resulting in significant overpayments. Some of these payments included charges for unallowable
outpatient dental services. For calendar years 2010 and 2011, Ben Taub General Hospital (Ben
Taub Hospital) received the second most reimbursement of any hospital in Texas for certain
Medicare outpatient dental services that we determined may be ineligible for Medicare payment.

OBJECTIVE

Our objective was to determine whether Ben Taub Hospital claimed Medicare hospital outpatient
dental services in accordance with Medicare requirements.

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the program. CMS contracts with Medicare administrative contractors to process
and pay Medicare claims submitted by hospital outpatient departments.

Medicare Hospital Outpatient Dental Services

Medicare generally does not cover hospital outpatient dental services. Under the general
exclusion provisions of the Act, items and services in connection with the care, treatment, filling,
removal, or replacement of teeth or structures directly supporting the teeth (e.g., preparation of
the mouth for dentures or removal of diseased teeth in an infected jaw) are not covered (section
1862(a)(12)). Coverage is not determined by the value or the necessity of the dental care but by
the type of service provided and the anatomical structure on which the procedure is performed.

For hospital outpatient dental services to be covered, they must be performed as incident to and
as an integral part of a procedure or service covered by Medicare. 1 For example, Medicare
covers extractions done in preparation for radiation treatment for neoplastic diseases involving
the jaw, but a tooth extraction performed because of tooth decay is not covered. Dental services
associated with a diagnosis related to cancer or physical trauma are generally eligible for
Medicare payment.

1
    Medicare Benefit Policy Manual, Publication No. 100-02, chapter 15, § 150.


Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                              1
Ben Taub General Hospital

Ben Taub Hospital is an acute care hospital in Houston, Texas, that has 586 Medicare-certified
beds. Effective November 2012, Novitas Solutions, Inc., assumed full responsibility as the
Medicare administrative contractor for Jurisdiction H, which includes Texas.

HOW WE CONDUCTED THIS REVIEW

Our review covered 344 Medicare claim lines for hospital outpatient dental services with a
diagnosis not related to cancer or physical trauma, totaling $818,967, provided by Ben Taub
Hospital during the period January 1, 2010, through December 31, 2011. We interviewed Ben
Taub Hospital officials and determined that its billing system edits related to dental services were
not successful in ensuring that all dental services were eligible for Medicare payment and that it
did not have written policies and procedures in place related to billing for dental services. We
reviewed a simple random sample of 30 claim lines to confirm that the identified 344 claim lines
for hospital outpatient dental services with a diagnosis not related to cancer or physical trauma
were ineligible for Medicare payment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

Ben Taub Hospital claimed Medicare reimbursement for 344 hospital outpatient dental services
that did not comply with Medicare requirements. As a result, we concluded that Ben Taub
Hospital improperly received $818,967 in Medicare reimbursement for hospital outpatient dental
services that did not comply with Medicare requirements.

UNALLOWABLE MEDICARE HOSPITAL OUTPATIENT DENTAL SERVICES

Our review of the 30 claim lines confirmed that Ben Taub Hospital’s outpatient dental services
were ineligible for Medicare payment because they were associated with a diagnosis not related
to cancer or physical trauma. Although Ben Taub Hospital had billing system edits in place to
ensure that it billed only for services that met Medicare requirements, those edits did not ensure
that all dental services were eligible for Medicare payment because they were not implemented
in all hospital departments where dental services were provided. In addition, Ben Taub Hospital
did not have written policies and procedures in place during our audit period related to billing for
dental services.

On most of the sampled claim lines we reviewed, Ben Taub Hospital billed Medicare for tooth
extractions that were typically performed as a result of tooth decay, which is not a covered



Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                              2
service. 2 In addition, Ben Taub Hospital billed Medicare for tooth socket repairs (e.g., reshaping
of the tooth bone), which is also excluded from Medicare coverage. 3 These unallowable tooth
extractions and tooth socket repairs accounted for all unallowable claim lines in our sample.

Ben Taub Hospital officials acknowledged that the 30 claim lines were not billed correctly and
that the billing system edits were not implemented in all hospital departments where dental
services were provided. As a result of our audit work, we concluded that Ben Taub Hospital
improperly received $818,967 in Medicare reimbursement for hospital outpatient dental services
that did not comply with Medicare requirements.

                                           RECOMMENDATIONS

We recommend that Ben Taub Hospital:

          •	 refund $818,967 to the Medicare administrative contractor and

          •	 expand its billing system edits to all hospital departments where dental services are
             provided to ensure that those services are claimed in accordance with Medicare
             requirements and establish written policies and procedures related to billing for dental
             services.

BEN TAUB GENERAL HOSPITAL COMMENTS

In its comments on our draft report, Ben Taub Hospital agreed with our findings and
recommendations and explained that the edits related to Medicare claims for dental services were
expanded to all hospital departments that provide dental services. In addition, Ben Taub
Hospital identified an additional $57,377 that was claimed in error and refunded the money to
Medicare. Ben Taub Hospital’s comments are included in their entirety as Appendix B.




2
    Medicare Benefit Policy Manual, Publication No. 100-02, chapter 15, § 150.
3
    Id.


Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                                   3
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our review covered 344 Medicare claim lines for hospital outpatient dental services with a
diagnosis not related to cancer or physical trauma, totaling $818,967, provided by Ben Taub
Hospital during the period January 1, 2010, through December 31, 2011. We interviewed Ben
Taub Hospital officials and determined that its billing system edits related to dental services were
not successful in ensuring that all dental services were eligible for Medicare payment and that it
did not have written policies and procedures in place related to billing for dental services. We
reviewed a simple random sample of 30 claim lines to confirm that the identified 344 claim lines
for hospital outpatient dental services with a diagnosis not related to cancer or physical trauma
were ineligible for Medicare payment.

We limited our review of Ben Taub Hospital’s internal controls to those that were applicable to
the selected dental services because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

We performed our audit work from May through August 2013.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Medicare laws, regulations, and guidance;

    •	 interviewed Medicare officials to obtain an understanding of the Medicare requirements
       related to hospital outpatient dental services;

    •	 interviewed Ben Taub Hospital officials to gain an understanding of its policies and
       procedures related to billing Medicare for hospital outpatient dental services;

    •	 extracted from CMS’s National Claims History file 344 Medicare claim lines for hospital
       outpatient dental services with a diagnosis not related to cancer or physical trauma,
       totaling $818,967, provided by Ben Taub Hospital for the period January 1, 2010,
       through December 31, 2011;

    •	 selected a simple random sample of 30 of those claim lines to confirm that the claim lines
       were ineligible for Medicare payment;

    •	 requested that Ben Taub Hospital officials conduct their own review of the selected claim
       lines to determine whether they thought that the services were billed correctly;




Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                             4
    •	 evaluated the documentation obtained from Ben Taub Hospital for each sample item to
       determine whether the claim lines were paid in accordance with Medicare requirements;

    •	 determined the total reimbursement paid for the 344 Medicare claim lines for dental
       services with a diagnosis not related to cancer or physical trauma; and

    •	 discussed the results of our audit with Ben Taub Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                          5
              APPENDIX B: BEN TAUB GENERAL HOSPITAL COMMENTS





                                                                                   HARRIS HEALTH
                                                                                                SYSTEM
            Harris Health System
            P.O. Box 66769, Houston, Te•as 77266·6769

                                                                        January 3, 2014




             Patricia Wheeler
             Regional Inspector General for Audit Services
             Office oflnspector General
             Office of Audit Services, Region VI
             II 00 Commerce Street, Room 632
             Dallas, TX 75242                                           Re: Report No. A-06-13-00004

             Dear Ms. Wheeler

                    This letter is in response to the Office oflnspector General's ("OIG") letter of December
             13, 2013 and draft report, "Ben Taub General Hospital Claimed Unallowable Medicare
             Reimbursement for Hospital Outpatient Dental Services." We appreciate both the review by the
             O IG and the opportunity to respond.

                    The Harris County Hospital District d/b/a Harris Health System ("Harris Health") has
             reviewed the draft report and agrees with the OIG's finding that Harris Health received Medicare
             reimbursement for 344 hospital outpatient dental services that may not have met Medicare
             requirements for reimbursement.

                    Harris Health determined that while editing systems were in place to identify dental
            claims that should not be billed to Modicare, these editing systems were only effective for the
            genera! dental services areas and not for the Oral and Maxillofacial department. All of the
            claims that are being refunded were associated with services provided by the Oral Maxillofacial
            department. Harris Health has ensured that the edits related to Medicare claims for dental
            services have been expanded to all areas that provide dental services, including the Oral
            Maxillofacial department. The claim edits were expanded to all areas providing dental services
            effective June I, 20 13. Harris Health has provided training to the employees who are entering
            dental charges and billing for dental services.

                    The audit by the OIG identified 344 claims, totaling $818,967 for the two-year period,
             January 1, 2010 through December 31, 2011, as ineligible for Medicare reimbursement.
             However Harris Health identified additional amounts on the claims that should also be refunded
             to Medicare. Consequently Harris Health has refunded $876,344.31 for the 344 claim lines.




Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                                           6
             Patricia Wheeler
             January 3, 2014
             Page 2 of 2


             Harris Health has already refunded through corrected claims $90,105.87 to Novitas. Copies of
             these corrected claims and remittance file information are enclosed. Novitas subsequently
             correctly paid Harris Health $2,552.30 for one of these claims. The remainder of$788, 790.74
             has been refunded to Novitas through a refund check.

                    Thank you for providing us with the opportunity to respond. Please contact me directly
             at 713-566-2332 if you have questions or need further information.

                                                                       Very truly yours,


                                                                       IS/ Terry L. Reeves


                                                                       Terry L. Reeves
                                                                       Sr. Vice President, Corporate
                                                                       Compliance

             TLR:tlr
             Enclosure:     Claims
                            Remittance Advice Information




Ben Taub Hospital Medicare Outpatient Dental Services (A-06-13-00004)                                        7
